                                                            U. S. Department of Justice




                                                       United States Attorney
                                             Northern District of Illinois
Patrick J. Fitzgerald                        Federal Building
United States Attorney                       219 South Dearborn Street, Fifth Floor
                                             Chicago, Illinois 60604
                                             (312) 353-5300



FOR IMMEDIATE RELEASE                        PRESS CONTACTS:
TUESDAY MAY 13, 2003                         AUSA Theodore Chung      (312) 886-4187
                                             AUSA/PIO Randall Samborn (312) 353-5318



             TRUCKING OWNER ARRESTED FOR ALLEGEDLY PAYING
         $4,000 BRIBE TO FEDERAL TRANSPORTATION SAFETY OFFICIAL


       CHICAGO -- The owner of a Chicago trucking company was arrested today on federal

bribery charges for allegedly attempting to pay a $2,000 bribe, and later paying a $4,000 bribe, to

a federal transportation safety official in exchange for improving an unsatisfactory rating on the

company’s safety compliance review. The defendant, Hei Yeng Kwok, owned and operated

K&W Trading Co., located at 1419 West 15th St., which employed more than 10 truck drivers.

The company was ordered to cease all inter-state trucking operations on May 7. The arrest was

announced by Patrick J. Fitzgerald, United States Attorney for the Northern District of Illinois,

and Dieter Harper, Special Agent-in-Charge of the Midwest Office of U.S. Department of

Transportation’s Office of Inspector General. The case stems from the Operation Safe Road

investigation of public corruption that compromised the safety of nation’s roads and highways,

they said.

       Kwok, 43, of 501 West 24th Place, Apt. 802, Chicago, was charged with bribery in a

criminal complaint. He had an initial appearance today before U.S. Magistrate Nan Nolan in

U.S. District Court.
       According to the complaint, a specialist with the Federal Motor Carrier Safety

Administration (FMCSA) began performing a full safety compliance review of K&W Trading in

January. The review was not completed, however, because K&W did not produce certain

documents -- such as driver qualification files, driver logs, daily vehicle inspection reports, and

vehicle maintenance files -- necessary to properly evaluate K&W’s compliance with federal

regulations. K&W failed to produce any documents whatsoever relating to approximately 10

truck drivers that, according to Kwok, were employed by K&W. On March 5, Kwok signed a

form acknowledging that K&W has been given an “unsatisfactory” rating by the FMCSA based

on its failure to provide the required safety-related information.

       On April 22, the FMCSA specialist visited K&W to determine whether it had taken any

corrective action and reviewed documents in an office. Kwok allegedly approached the official

from behind, grabbed the official’s shoulder with one hand, and with his other hand, tried to

place approximately $2,000 in $20 denominations against the official’s side or into the official’s

coat or pants pocket. The official discovered the cash and asked Kwok, “What are you trying to

do?,” or words to that effect. Kwok did not respond, at which time the official instructed Kwok

to retrieve the money. Kwok then replied, “Put the money in your pocket, it for you, I know you

will take care of me,” or words to that effect. The official stated that he would not accept a bribe

and that such a payment was illegal. Kwok left the office without retrieving the $2,000.

       While still at K&W, the official, by telephone, alerted a colleague at the FMCSA as to

Kwok’s actions and discretely photocopied the $20 bills that he had received from Kwok. The

official subsequently attempted to return the bills to Kwok, but Kwok refused to accept the

money. The official nevertheless put the money against Kwok’s chest in such a manner as to




                                                  2
require Kwok to retake possession of it.        FMCSA managers contacted DOT OIG, which

immediately initiated an investigation.

       The next day, on April 23, the specialist returned to K&W and, during a recorded

conversation with Kwok, discussed the payment that Kwok had attempted to make to the official

the preceding day. Eventually, Kwok allegedly agreed to pay the official $4,000 if it would

resolve the unsatisfactory rating, and Kwok allegedly paid that amount to the official in a remote

area of K&W’s facility that day.

       The government is being represented by Assistant U.S. Attorneys Theodore Chung and

Patrick M. Collins.

       Upon conviction, bribery of a public official carries a maximum penalty of 15 years in

prison and a $250,000 fine. The Court, however, would determine the appropriate sentence to be

imposed under the United States Sentencing Guidelines.

       The public is reminded that a complaint contains only charges and is not evidence of

guilt. The defendant is presumed innocent and is entitled to a fair trial at which the United States

has the burden of proving guilt beyond a reasonable doubt.



                                              ####




                                                 3
